No. _____

IN THE

Supreme Court of the United States
_______________

ERICA YVONNE SHEPPARD,
v.

Petitioner,

LORIE DAVIS, DIRECTOR,
TEXAS DEPARTMENT OF CRIMINAL JUSTICE,
CORRECTIONAL INSTITUTIONS DIVISION,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
KEVIN M. BELL
KILPATRICK TOWNSEND & STOCKTON L.L.P.
Suite 600
1400 Wewatta Street
Denver, CO 80202
(303) 571-4321
kbell@kilpatricktownsend.com

WILLIAM ALAN WRIGHT
Counsel of Record
KILPATRICK TOWNSEND & STOCKTON L.L.P.
Suite 4400
2001 Ross Avenue
Dallas, TX 75201
(214) 922-7131
alan.wright@kilpatricktownsend.com

Counsel for Petitioner

December 21, 2020

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 of the Rules of the Supreme Court of the United States, Petitioner,
Erica Yvonne Sheppard, asks leave to file the accompanying Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit without payment of costs and to proceed in
forma pauperis, and in support of the request states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the Rules of this

Court, with Appendix attached, is submitted for filing along with this Motion.
2.

Petitioner has previously been granted leave to proceed in forma pauperis in the

following courts:
The State Courts of Texas
The United States District Court for the Southern District of Texas (No. 4:14-cv-00655)
The United States Court of Appeals for the Fifth Circuit (No. 18-70011)
3.

Petitioner was determined to be indigent by the United States District Court for the

Southern District of Texas and counsel was appointed to represent Petitioner pro bono on March
24, 2014 pursuant to 18 U.S.C. § 3599(a)(2). A copy of the order of appointment is appended.
4.

Petitioner’s affidavit or declaration is not attached because the court below

appointed counsel in the current proceeding.

1

Respectfully submitted,
/s/ W. Alan Wright
William Alan Wright
Texas Bar No. 22062700
KILPATRICK TOWNSEND & STOCKTON LLP
2001 Ross Avenue, Suite 4400
Dallas, Texas 75201
214-922-7131 Telephone
214-292-9712 Facsimile
alan.wright@kilpatricktownsend.com
Kevin M. Bell
Colorado Bar No. 39102
KILPATRICK TOWNSEND & STOCKTON LLP
1400 Wewatta Street, Suite 600
Denver, Colorado 80202
303-571-4000 Telephone
303-736-4216 Facsimile
kbell@kilpatricktownsend.com
Attorneys for Petitioner

2

Case 4:14-cv-00655 Document 8 Filed on 03/24/14 in TXSD Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
ERICA YVONNE SHEPPARD,
Petitioner,
V.

BRAD LIVINGSTON, Director, Texas
Department of Criminal Justice,
Respondent.

§
§
§
§
§
§
§
§

H-14-CV-655

ORDER GRANTING PETITIONER'S MOTIONS TO PROCEED IN FORMA
PAUPERIS AND FOR APPOINTMENT OF COUNSEL
Petitioner Erica Yvonne Sheppard is a death row inmate, currently in the custody of
the Texas Department of Criminal Justice. She has filed motions for leave to proceed in
forma pauperis and for the appointment of counsel to assist her in filing a petition for a writ

of habeas corpus.
Title 18 U.S.C. § 3599(a)(2) provides for appointment of counsel in a habeas corpus
proceeding when the petitioner is financially unable to obtain adequate representation on his
own. Sheppard's is financially unable to obtain representation.
Accordingly, it is

ORDERED that Sheppard's Motions For Leave To Proceed In Forma Pauperis
(Docket Entry 1 and 3) and for Appointment of Pro Bono Counsel (Docket Entry 2) are

GRANTED; and it is further
ORDERED that W. Alan Wright, Esq. and the law firm of Crouch & Ramey, LLP,
2001 Ross Avenue, suite 4400, Dallas, TX 75201, are appointed to represent Sheppard pro

Case 4:14-cv-00655 Document 8 Filed on 03/24/14 in TXSD Page 2 of 2

bono in this habeas corpus proceeding.
SO ORDERED
Signed

~"

'2,,~, 2014, at Houston, Texas.

~~'

Vanessa Gilmore
United States District Judge

2

